TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                             The Human Capital Office
                         Improved the Hiring Process, but
                        Additional Actions Can Be Taken to
                          Better Monitor Hiring Timelines



                                         August 26, 2011

                              Reference Number: 2011-10-089




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  HIGHLIGHTS


THE HUMAN CAPITAL OFFICE                              various single open positions (versus large
IMPROVED THE HIRING PROCESS,                          group hirings) decreased from 157 calendar
BUT ADDITIONAL ACTIONS CAN BE                         days in June 2009 to 130 calendar days for
TAKEN TO BETTER MONITOR                               Fiscal Year 2010.
HIRING TIMELINES                                      While improvements have been made, Human
                                                      Capital Office management’s implementation of
                                                      a new computer system to increase efficiency
Highlights                                            did not provide easy access to hiring inventory
                                                      reports, and hiring timeline tools were not used
Final Report issued on August 26, 2011                in all Human Capital Office Employment
                                                      Operations offices to fully achieve their benefits.
Highlights of Reference Number: 2011-10-089           Further improvements in these areas could help
to the Internal Revenue Service Human Capital         Human Capital Office management further
Officer.                                              reduce hiring timelines to compete for potential
                                                      employees with the unique skills needed to
IMPACT ON TAXPAYERS                                   replace those who are retiring or leaving for
The Internal Revenue Service (IRS), like many         other jobs.
Federal agencies, is faced with the major human       WHAT TIGTA RECOMMENDED
capital challenge of replacing a large number of
its 107,000 employees with unique skills and          TIGTA recommended that the Director,
institutional knowledge who are expected to           Employment, Talent, and Security Division, IRS
retire or leave for other jobs over the next          Human Capital Office, complete programming
several years. Human Capital Office                   for web-based, time-in-process reports and
management has taken steps to reduce hiring           provide guidance to ensure Human Capital
timelines and has created performance                 Office branch offices understand the use and
measures that include all hiring categories used      benefits of tools developed to reduce hiring
by the IRS. Further improvements will help the        timelines.
IRS better monitor and reduce hiring timelines in
                                                      In their response to the report, IRS management
order to compete for the best potential
                                                      agreed with the recommendations. Human
employees and lay the foundation for providing
                                                      Capital Office management completed
quality service to America’s taxpayers for years
                                                      programming for web-based reports. The
to come.
                                                      reports are posted to an intranet web site to
WHY TIGTA DID THE AUDIT                               allow Human Capital Office personnel and hiring
                                                      managers in the business units to monitor
This audit was requested by the IRS and               announcement inventory and accumulated
addresses the major management challenge of           calendar days in the hiring process. In addition,
Human Capital. The overall objective was to           Human Capital Office management plans to
determine whether the IRS has developed an            issue guidance to all employment offices on
adequate methodology to monitor and improve           when hiring timeline tools should be used.
the timeliness of hiring new employees.
WHAT TIGTA FOUND
Human Capital Office management has taken
steps to reduce hiring timelines through system
improvements and the use of hiring timeline
tools and has created performance goals and
measures for individual steps in the hiring
process for all hiring categories. As a result, the
IRS reports that the timelines for hiring
employees from outside the Government for the
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           August 26, 2011


 MEMORANDUM FOR INTERNAL REVENUE SERVICE HUMAN CAPITAL OFFICER

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Human Capital Office Improved the Hiring
                             Process, but Additional Actions Can Be Taken to Better Monitor Hiring
                             Timelines (Audit # 201010008)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) has developed an adequate methodology to monitor and improve the timeliness of hiring
 new employees. This review was requested by the IRS and is included in our Fiscal Year 2011
 Annual Audit Plan and addresses the major management challenge of Human Capital.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Nancy Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
 Organizations), at (202) 622-8500.
                                        The Human Capital Office Improved the
                                       Hiring Process, but Additional Actions Can
                                      Be Taken to Better Monitor Hiring Timelines




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 5
          Actions Were Taken to Improve the Hiring Process,
          but Improved Monitoring and Consistent Use of
          Timeline Tools Are Needed .......................................................................... Page 5
                    Recommendations 1 and 2: ................................................ Page 9

          The Human Capital Office Developed a Methodology
          for Monitoring and Reporting Hiring Timelines .......................................... Page 9

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 12
          Appendix II – Major Contributors to This Report ........................................ Page 14
          Appendix III – Report Distribution List ....................................................... Page 15
          Appendix IV – The Office of Personnel Management’s
          End-to-End Hiring Roadmap ........................................................................ Page 16
          Appendix V – Glossary of Terms ................................................................. Page 17
          Appendix VI – Management’s Response to the Draft Report ...................... Page 20
        The Human Capital Office Improved the
       Hiring Process, but Additional Actions Can
      Be Taken to Better Monitor Hiring Timelines




            Abbreviations

HCO   Human Capital Office
IRS   Internal Revenue Service
OPM   Office of Personnel Management
                                   The Human Capital Office Improved the
                                  Hiring Process, but Additional Actions Can
                                 Be Taken to Better Monitor Hiring Timelines




                                            Background

The Internal Revenue Service (IRS), like many Federal agencies, is faced with the major human
capital1 challenge of replacing a large number of its 107,000 employees2 with unique skills and
institutional knowledge who are expected to retire or leave for other jobs over the next several
years. To compete for the best potential employees available, the IRS hiring process needs to be
as efficient as possible. By hiring and retaining talented individuals, the IRS can lay the
foundation for providing quality service to America’s taxpayers for years to come.
Generally, the IRS’s hiring process begins when the Human Capital Office (HCO) receives an
approved request to hire an employee (a personnel action request) and ends when the new
employee officially starts work. Steps in the process include creating, opening, and closing the
job opportunity announcement; reviewing applications and assessing whether applicants meet the
job requirements; providing a certified listing of qualified candidates (hereafter referred to as the
certificate of eligible applicants) to the hiring managers for consideration; interviewing
applicants; and making a tentative offer to the selected applicant pending the outcome of a
background investigation.3
If other prospective employers have faster hiring processes, the IRS could miss the opportunity
to hire the best and brightest candidates. In addition, the longer it takes to fill an open position,
the longer an IRS manager must operate without a full set of resources, which could strain
existing resources or result in reduced workload; both affect a manager’s ability to accomplish
the IRS’s mission.4 The heading for the IRS’s public web page for job seekers, as shown in
Figure 1, reflects the desire to hire talented individuals.
                             Figure 1: IRS Recruiting Information
                     Citing the Importance of Hiring Talented Employees




Source: IRS Careers web site.



1
  See Appendix V for a glossary of terms.
2
  The number of employees as of November 2009, according to the IRS Human Capital Business Plan 2010–2014.
3
  Background investigations, including fingerprinting and completion of detailed personal and financial information
questionnaires, are required for most IRS employees because they are entrusted with sensitive taxpayer information.
4
  The IRS’s mission is to “provide America’s taxpayers top quality service by helping them understand and meet
their tax responsibilities and enforce the law with integrity and fairness to all.”
                                                                                                           Page 1
                                    The Human Capital Office Improved the
                                   Hiring Process, but Additional Actions Can
                                  Be Taken to Better Monitor Hiring Timelines



Two recent Government-wide initiatives have emphasized reducing hiring timelines.
       •   The Office of Personnel Management (OPM) developed the End-to-End Hiring
           Roadmap5 in September 2008. The End-to-End Hiring Roadmap encouraged agencies to
           reduce the time required to hire employees from outside the Federal Government to
           80 calendar days or less and established suggested time periods for individual steps in the
           hiring process.
           However, the OPM noted that agencies may need to adjust the number of days for each
           step while keeping within the 80-calendar-day standard for end-to-end hiring. The OPM
           stated that it did not expect agencies to immediately meet the 80-calendar-day standard;
           however, it did expect agencies to work toward the 80-calendar-day target, evaluate
           progress, and move toward the standard. This goal was designed for hiring an employee
           from outside the Federal Government to fill a single open position (also known as ad hoc
           hiring).
       •   The President issued a memorandum in May 2010 requiring that agencies substantially
           reduce the time it takes to hire mission critical and commonly filled positions, measure
           the quality and speed of the hiring process, analyze the causes of agency hiring problems,
           and identify actions that will be taken to reduce them. OPM guidelines for reporting on
           these initiatives were being developed during our fieldwork.
The IRS uses different hiring methods than many other agencies because of the need to hire large
numbers of technical and mission critical employees for various date-specific needs, such as the
tax filing season and scheduled training classes for hundreds of needed new employees starting
as a group. While other Federal agencies may use ad hoc hiring more extensively, the IRS hires
only approximately 10 to 15 percent of its employees in this manner. The other approximately
85 to 90 percent of employees are hired through the use of non-ad hoc mass (large group) hiring
techniques known as wave and filing season hiring and OPM register hiring.
Figure 2 shows the four general hiring categories used by the IRS.




5
    See Appendix IV for a graphical display of the OPM’s End-to-End Hiring Roadmap.
                                                                                               Page 2
                                              The Human Capital Office Improved the
                                             Hiring Process, but Additional Actions Can
                                            Be Taken to Better Monitor Hiring Timelines



                                                 Figure 2: IRS Hiring Categories

                                     Category                                       Description

                     Method used to hire     Ad hoc hires     Hiring for a single open position.
                     approximately
                     10 to 15 percent
                     of total new hires.

                                                Wave hires    Hiring to fill a large number of positions prior to a
                                                              scheduled training (i.e., basic training for revenue
 Non-Ad Hoc Hiring




                                                              agents and revenue officers).
                      Methods, when
                      combined, are
                                             Filing season    Hiring from a register of candidates who can be called
                      used to hire
                                                 hires        to work when and if the need arises (i.e., data
                      approximately
                                                              transcribers for inputting tax returns varies based on
                      85 to 90 percent
                                                              the number of returns filed manually).
                      of total new hires.
                                            OPM register      Hiring drawn from a register of applicants maintained
                                               hires          by the OPM.
Source: The HCO Employment, Talent, and Security Division’s data dictionary and discussions with
HCO managers.

In March 2010, the Department of the Treasury suspended its requirement for reporting the time
taken to hire new employees while the OPM worked with Federal agencies to draft new
reporting guidance. Previously, the IRS was required to report to the Department of the Treasury
only the time taken for ad hoc hires, as there was no standard developed for mass hiring
initiatives, such as wave and filing season hiring. However, based upon guidance from the
Department of the Treasury, HCO management implemented two new performance measures
that include all employees in the four categories in Figure 2. These measures are: 1) the average
calendar days for external hiring and 2) the average calendar days for internal hiring.
Each measure has 2 components that are added together and averaged, with a goal of 80 calendar
days or less for both measures. The two components are:
                 •    Calendar days for ad hoc hiring – Calendar days for all ad hoc hires are measured from
                      the date the request to hire an employee is submitted to the HCO to the date the new
                      employee starts work (the entry-on-duty date).
                 •    Calendar days for non-ad hoc hiring – Calendar days for all non-ad hoc (i.e., wave,
                      filing season, and OPM register) hires are measured from the date the certificate of
                      eligible applicants is sent to the hiring manager, which is about halfway into the hiring
                      process, to the entry-on-duty date.


                                                                                                                Page 3
                               The Human Capital Office Improved the
                              Hiring Process, but Additional Actions Can
                             Be Taken to Better Monitor Hiring Timelines



The HCO is responsible for developing strategies to improve the timeliness of hiring new
employees and reporting the IRS’s progress to the OPM. In addition, each of the
IRS’s four operating divisions (hereafter referred to as business units) has embedded human
resources offices that coordinate hiring activities with the HCO and the hiring managers in the
business units.
At the time of this report, the OPM’s reporting requirements had not been finalized and are not
incorporated into this report. As a result, this report might not reflect the most current status of
the HCO’s efforts to develop an adequate methodology to monitor and improve the timeliness of
hiring new employees.
This review was performed in the HCO Employment, Talent, and Security Division at the
IRS National Headquarters in Washington, D.C., and in the HCO Employment Operations
offices in Andover, Massachusetts, and Philadelphia, Pennsylvania, during the period
August 2010 through January 2011. This audit was limited to the HCO’s efforts to monitor and
improve hiring timelines. Additional reviews of hiring timelines from the business units’
perspective and an analysis of hiring timelines data are planned for the future. We conducted
this performance audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective. Detailed information on our audit objective,
scope, and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                             Page 4
                                   The Human Capital Office Improved the
                                  Hiring Process, but Additional Actions Can
                                 Be Taken to Better Monitor Hiring Timelines




                                      Results of Review

HCO management has taken steps to reduce hiring timelines through system improvements and
the use of hiring timeline tools and created performance goals and measures for individual steps
in the hiring process for all hiring categories.6 As a result, the IRS reports that the hiring
timelines for ad hoc employees from outside the Government7 decreased significantly from
157 calendar days in June 20098 to 130 calendar days for Fiscal Year 2010.9
While improvements have been made, HCO management’s implementation of a new computer
system to increase efficiency did not provide easy access to hiring inventory reports, and hiring
timeline tools were not used in all HCO Employment Operations offices to fully achieve their
benefits. Additional improvements in these areas could help the IRS further reduce hiring
timelines to compete for potential employees with the unique skills needed to replace those that
are retiring or leaving for other jobs.

Actions Were Taken to Improve the Hiring Process, but Improved
Monitoring and Consistent Use of Timeline Tools Are Needed
The IRS’s hiring process averaged 157 calendar days for external ad hoc hires in June 2009,
when the OPM launched the End-to-End 80-calendar-day standard as part of the “Hiring
Reform 2009” initiative. To begin reducing hiring timelines, the IRS identified time-consuming,
manual steps in the hiring process and implemented system changes to reduce the administrative
burden for HCO Employment Operations personnel, hiring managers, and job applicants.
In addition, some individual HCO Employment Operations offices developed tools to help their
respective business unit hiring managers be more aware of the time they control in the hiring
process. In the past, business unit hiring managers were not as concerned about hiring timelines.
Generally, business unit managers control the portion of the timeline from when the certificate of
eligible applicants is issued to when the new employee is selected for a job. If the business unit
managers submit a personnel action request, but delay issuance of the certificate of eligible


6
  The categories are ad hoc and non-ad hoc, which includes wave, filing season, and OPM register hires. See
Figure 2 for additional details about the categories.
7
  This is external ad hoc hiring for a single open position, which comprises approximately 10 to 15 percent of all
new hires.
8
  Cumulative average calendar days as of the end of June 2009, for Fiscal Year 2009, as stated in the
HCO Employment, Talent, and Security Division’s internal management report updated through August 2010.
9
  The cumulative average for Fiscal Year 2010 as reported in the HCO Business Performance Review Report (dated
November 17, 2010). The reported hiring timelines for the fourth quarter only was 112 days (average calendar
days).
                                                                                                           Page 5
                                  The Human Capital Office Improved the
                                 Hiring Process, but Additional Actions Can
                                Be Taken to Better Monitor Hiring Timelines



applicants (e.g., postponement of a training class, delays in passage of the Federal budget, etc.),
it increases the upfront time. If the business unit managers delay conducting interviews or
deliberate after the interviews are completed, the IRS may exceed the 15-calendar-day standard
allotted for this step in the hiring process. To assist business unit hiring managers, the
HCO Employment Operations offices developed: 1) a spreadsheet for calculating due dates for
critical points in the hiring process, 2) form letters and reminder emails noting when hiring
packages should be returned to the HCO Employment Operations office, and 3) periodic reports
detailing the time elapsed on open job announcements. Additional actions taken by
IRS management are discussed in the following sections.

Expanded use of the Career Connector computer system
Expanded use of the Career Connector computer system reduced the time for internal hiring.
According to HCO management, by using automated templates in the system, the time taken to
hire internal candidates was reduced from 95 to 73 calendar days (23 percent) at the end of
Calendar Year 2010,10 compared to the previous manual process. In addition, when the Career
Connector system was used, the HCO reported that 69 percent of the announcements met the
80-calendar-day standard, compared to only 38 percent under the manual process.11
The computer system simplified the hiring process for job announcements by allowing electronic
submission of resumes and applicant qualification documentation (e.g., college transcripts),
automatically reviewing applications, assessing whether applicants meet the job requirements,
and determining which applicants are the best qualified. In addition to reducing hiring time,
another benefit of the Career Connector system is communication with the applicant. At various
points in the hiring process, HCO personnel can use the system to send status updates to
applicants via email (e.g., after receipt of the application, whether qualifications for the position
applied for are met, and selection or nonselection for the position).

Improved process for background investigations
Improvements to the process for completing background investigations reduced the hiring time
for all candidates and reduced the opportunity for loss of Personally Identifiable Information
(e.g., Social Security Numbers). Background investigations, including fingerprinting and
completion of detailed personal and financial information questionnaires, are required for most
IRS employees because they are entrusted with sensitive taxpayer information. Under the
previous fingerprinting process, an HCO employee coordinated with the candidate and local law
enforcement to have fingerprints taken. The fingerprint cards were then mailed or delivered to
the appropriate Government office for completion of the background investigation. Under the
new process, the candidate schedules an appointment at a local IRS or other Federal Government

10
  The period from October 1, 2010, to December 31, 2010.
11
  As stated in the IRS Fiscal Year 2011 First Quarter Business Performance Review Report (dated
February 16, 2011).
                                                                                                  Page 6
                               The Human Capital Office Improved the
                              Hiring Process, but Additional Actions Can
                             Be Taken to Better Monitor Hiring Timelines



office and the fingerprints are transmitted electronically for the background investigation.
According to HCO management, the new process reduced the time for fingerprinting from
60 minutes to 10 minutes per applicant, which is a significant amount of time when processing
hundreds of new employees at one time, as for wave and filing season hiring.
Another added benefit of the new process is that Federal Government identification badges are
now ready for new employees the day they report for work. This reduces the managerial burden
of providing an escort in IRS office space until the identification badge is received.

Improved the capture of hiring timeline data
Expanded use of electronic data improved the efficiency of processing new employees. The
implementation of the C-Comp computer program allowed HCO personnel to download data
from the Career Connector system to populate fields in other computer systems used for
processing new employees. This reduced processing time by eliminating the need to input data
already stored on other computer systems and also reduced the opportunity for input errors that
would have to be corrected.
In addition, the consistency of hiring data has improved and a data warehouse was created to
store hiring data from the different systems used for each type of IRS hiring. To ensure timely
input of data and to improve consistency, the Director, Employment, Talent, and Security
Division, issued a memorandum to HCO Employment Operations offices stressing that certain
data fields be kept updated and providing instructions that identified specific data that should be
input for specific fields in HCO systems. Also, through analysis of collected data, the HCO
identified and corrected inaccuracies to provide a more accurate picture of IRS’s hiring
timelines.

Communicated hiring reform initiatives
To communicate hiring timeline initiatives, the Director, Employment, Talent, and Security
Division, issued a memorandum in June 2010 to the human resources offices in the business
units explaining the OPM End-to-End 80-calendar-day standard and the hiring reform initiative
in the May 2010 Presidential Memorandum. In addition, HCO area and branch office managers
discussed the HCO initiatives to reduce hiring timelines with business unit hiring managers. The
purpose of these communications was to stress the need for cooperation throughout the IRS to
reduce hiring timelines, especially in the business units that control a significant portion of the
time in IRS’s hiring process. For example, in February 2010, the HCO reported that 44 percent
of the time was spent by the hiring manager on 2 specific steps for internal announcements not
posted on the Career Connector system: ranking applications in the order of the most qualified
and selecting the employee. The HCO standard for this part of the process is 26 percent of the
80 calendar days, or a total of 21 calendar days.
After implementing these various improvements, the HCO reported that hiring timelines for
external ad hoc hires had decreased from a cumulative average of 157 calendar days to
                                                                                             Page 7
                                  The Human Capital Office Improved the
                                 Hiring Process, but Additional Actions Can
                                Be Taken to Better Monitor Hiring Timelines



130 calendar days for Fiscal Year 2010.12 Reported internal ad hoc hiring timelines decreased
from 109 calendar days to 103 calendar days over the same period.13
While the HCO has taken many actions that have resulted in a reduction of reported hiring
timelines, additional improvements can be made to further reduce hiring timelines to meet the
80-calendar-day goal.

Improvements to real-time monitoring tools are needed
Development of a real-time monitoring tool would help the IRS further reduce the amount of
time it takes to hire employees. IRS management needs the ability to create reports to monitor
the amount of time spent at each step of the hiring process in real time. For example, reports
should highlight information such as delays after the certificate of eligible applicants is issued to
the business unit hiring manager to prompt the manager to focus on completing the selection of
the new employee.
HCO officials had started programming to extract data from the IRS’s hiring systems and convey
hiring timeline results online for HCO and business unit hiring managers. However, at the
conclusion of our audit work, this programming was not yet complete. Completing the
development and use of real-time reports to monitor announcement inventory and accumulated
calendar days in the hiring process will assist the HCO to monitor in-process hiring.

Use of hiring timeline tools is needed across all offices
The use of hiring timeline tools across HCO branch offices could help further reduce the amount
of time it takes to hire employees. For example, HCO management developed tools for hiring
managers’ use to help increase awareness of hiring timelines and reduce the time required to hire
new employees. These tools include a timeline calculator that generates critical dates for
planning hiring steps so managers would know when individual steps in the hiring process need
to be completed, memorandums attached to the front of hiring packages that contain the due date
for return of the hiring package to the HCO Employment Operations office, and the use of
follow-up email reminders as critical dates in the hiring process approach. However, because
HCO management was implementing many of these changes in a short time period, they were
unaware that not all HCO branch offices were using these tools. As a result, HCO management
may not be fully achieving the benefits of these tools. Ensuring hiring timeline tools are used
across all HCO branch offices will assist the HCO in monitoring hiring while in process, which
could lead to further reductions in hiring timelines.


12
   The cumulative average for Fiscal Year 2010 as reported in the HCO Business Performance Review Report (dated
November 17, 2010). The reported hiring timelines for the fourth quarter only was 112 days (average calendar
days).
13
   The cumulative fiscal year-to-date average calendar days as of the end of June 2009, per HCO Employment,
Security, and Talent Division internal management reports (dated August 2010).
                                                                                                       Page 8
                             The Human Capital Office Improved the
                            Hiring Process, but Additional Actions Can
                           Be Taken to Better Monitor Hiring Timelines



Recommendations
Recommendation 1: The Director, Employment, Talent, and Security Division, IRS HCO,
should ensure that programming is completed to develop web-based, time-in-process reports to
allow HCO personnel and hiring managers in the business units to monitor announcement
inventory and accumulated calendar days in the hiring process.
       Management's Response: IRS HCO management agreed with this recommendation
       and has completed programming for web-based reports. The reports are posted to an
       intranet web site to allow HCO personnel and hiring managers in the business units to
       monitor announcement inventory and accumulated calendar days in the hiring process.
Recommendation 2: The Director, Employment, Talent, and Security Division, IRS HCO,
should provide guidance to HCO branch offices to ensure they understand when tools such as the
timeline calculator, memorandums on the front of ranking and selection packages, and follow-up
email reminders should be used to fully achieve the benefits those tools provide.
       Management's Response: IRS HCO management agreed with this recommendation
       and plans to issue guidance to all employment offices on when hiring timeline tools
       should be used.

The Human Capital Office Developed a Methodology for Monitoring
and Reporting Hiring Timelines
During this audit, HCO management improved its controls for overseeing hiring timelines by
creating performance measures for all categories of hiring. In January 2011, the HCO developed
new performance measures for reporting hiring timelines that included both ad hoc and
non-ad hoc hires (i.e., wave, filing season, and OPM register). For monitoring hiring timelines,
HCO management also developed step-by-step timeline goals in the hiring process for ad hoc
hiring and adopted traditional performance measures for non-ad hoc hiring.

Monitoring and reporting for ad hoc hiring
At the beginning of our audit, the IRS was working toward the OPM 80-calendar-day
standard for measuring all ad hoc hires, both inside and outside the Federal Government.
HCO management initially established a 95-calendar-day goal and reduced the goal to
80 calendar days beginning in October 2010. Performance measures for monitoring internal and
external ad hoc hires include all time spent in the hiring process, from the date the personnel
action request is received by the HCO to the date the employee starts work. In addition,
HCO management established IRS-specific performance goals for individual steps in the hiring
process.



                                                                                         Page 9
                               The Human Capital Office Improved the
                              Hiring Process, but Additional Actions Can
                             Be Taken to Better Monitor Hiring Timelines



Monitoring and reporting for non-ad hoc hiring
At the beginning of our audit, HCO management had adopted traditional performance measures
for wave and filing season hires, such as the number of employees hired compared to the number
of employees needed by a specific date. As part of this process, business unit managers develop
detailed hiring plans, including individual steps in the hiring process, to hire the number of
employees needed by a specific date.
The new performance measures introduced in January 2011 for non-ad hoc hiring include only
the time spent in the hiring process from the date the certificate of eligible applicants is requested
by the hiring manager to the date the employee starts work. The performance measures exclude
the time spent completing upfront processes, such as announcing the job opportunity and
assessing applicants’ skills and qualifications.
HCO management stated that announcements for wave and filing season positions advise that the
position will open in the near future (i.e., there may not be an open position at the time of the
announcement but openings are expected soon thereafter). Per OPM guidance, the IRS sends
emails to the applicants at “touch points” in the hiring process (i.e., receipt of the application and
qualification determination). The Career Connector system automatically generates email
notifications, and HCO human resource specialists can send additional mass email notifications
to keep applicants advised of progress in the hiring process. In addition, the HCO stays in
contact with potential employees through social networks, such as Facebook and Twitter.
HCO management stated the reasons for not establishing step-by-step performance goals for
wave and filing season hiring are:
   •   In order to hire hundreds of new employees by a specific date, upfront steps in the hiring
       process are completed before the business units are ready to hire employees.
   •   The number of employees needed and the timing of the job openings are dependent on
       many factors, which are not known when HCO Employment Operations offices must
       begin the hiring process (identify a pool of potential candidates). For example, the
       number of tax returns manually filed affects how many seasonal employees will be
       needed for return processing and data transcription, changes in the tax law affect whether
       additional employees are needed to provide taxpayer assistance and to enforce
       compliance, and congressional delays in passing the Federal budget affect when funding
       is available to hire new employees.
   •   Upfront processes to identify qualified candidates to interview are performed by the OPM
       for OPM register hiring. The HCO does not commonly use this type of hiring, and it has
       not been included in the hiring timeline measures reported in the past.




                                                                                             Page 10
                                  The Human Capital Office Improved the
                                 Hiring Process, but Additional Actions Can
                                Be Taken to Better Monitor Hiring Timelines



In addition, IRS management stated that the 80-calendar-day standard for non-ad hoc hires does
not include all hiring steps and is not consistent with the OPM’s new methodology and with how
all Department of the Treasury bureaus report.14
For internal management purposes, HCO management monitors hiring plan due dates in the
hiring process for wave and filing season hires, including upfront steps not included in the
reported performance measures, and progress is reported to IRS executives. Because wave and
filing season hiring involves hiring hundreds of new employees by a specific date,
HCO Employment Operations offices begin building a pool of qualified candidates based on the
business units’ workforce plans well in advance of when the business units are ready to begin
their part of the hiring process. For example, HCO Employment Operations offices begin
preparing in July for a mass hiring that will take place in October/November. Communication is
maintained with the business unit managers throughout the hiring process in order to identify
delays, and workload may be shifted to other HCO Employment Operations offices and
additional HCO personnel may be assigned to assist in completing some of the tasks to ensure
hiring goals and deadlines are met.
Step-by-step timeline performance goals for ad hoc hiring and detailed hiring plans with
corresponding due dates for non-ad hoc hiring should help HCO management monitor hiring
timelines. Maintaining regular communication with applicants applying for wave and filing
season positions should help the IRS compete for the best and brightest candidates. Since the
HCO developed performance measures for monitoring and reporting timelines for all hiring
categories, and OPM guidelines were not yet finalized, we are making no additional
recommendations in this area at this time.




14
  As we were completing our audit, the OPM had not yet published its new methodology and the Department of the
Treasury had not published its guidance.
                                                                                                     Page 11
                                     The Human Capital Office Improved the
                                    Hiring Process, but Additional Actions Can
                                   Be Taken to Better Monitor Hiring Timelines



                                                                                     Appendix I

            Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the IRS has developed an adequate methodology
to monitor and improve the timeliness of hiring new employees. To accomplish this objective,
we:
I.         Identified the requirements and best practices Federal agencies should use to monitor and
           report the timeliness of hiring new employees.
           A. Reviewed the OPM End-to-End Hiring Roadmap1 and other OPM guidance to
              identify requirements Federal agencies should use to monitor and improve hiring
              timelines.
           B. Reviewed the May 2010 Presidential Memorandum and pending legislation to
              identify requirements Federal agencies should use to monitor and improve hiring
              timelines.
           C. Reviewed Department of the Treasury memorandums and other guidance to identify
              requirements the IRS should use to monitor and reduce hiring timelines.
II.        Determined how the HCO identifies and addresses hiring inefficiencies.
           A. Identified the methodology used to monitor the timeliness of hiring new employees
              for each type of hiring category.
           B. Determined whether the HCO’s methodology to monitor hiring timelines is adequate
              to identify areas needing improvement.
           C. Determined whether the HCO identified and addressed areas in the hiring process
              needing improvement.
           D. Evaluated whether the HCO developed an adequate methodology to monitor and
              improve steps in the hiring process that need improvement and took appropriate
              action to address areas identified in subobjective II.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems


1
    See Appendix V for a glossary of terms.
                                                                                            Page 12
                             The Human Capital Office Improved the
                            Hiring Process, but Additional Actions Can
                           Be Taken to Better Monitor Hiring Timelines



for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the May 2010 Presidential Memorandum;
OPM guidance; and HCO policies, procedures, and practices for monitoring, measuring,
identifying, and improving IRS hiring timelines. We evaluated these controls by interviewing
HCO management and reviewing applicable information.




                                                                                      Page 13
                           The Human Capital Office Improved the
                          Hiring Process, but Additional Actions Can
                         Be Taken to Better Monitor Hiring Timelines



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Troy D. Paterson, Director
Gerald T. Hawkins, Audit Manager
Julia Moore, Lead Auditor
Steve T. Myers, Senior Auditor
Melinda H. Dowdy, Auditor




                                                                                  Page 14
                            The Human Capital Office Improved the
                           Hiring Process, but Additional Actions Can
                          Be Taken to Better Monitor Hiring Timelines



                                                                  Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Deputy IRS Human Capital Officer OS:HC
Director, Employment, Talent, and Security Division OS:HC:ETS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: IRS Human Capital Officer OS:HC




                                                                        Page 15
                                      The Human Capital Office Improved the
                                     Hiring Process, but Additional Actions Can
                                    Be Taken to Better Monitor Hiring Timelines



                                                                                                   Appendix IV

                  The Office of Personnel Management’s
                       End-to-End Hiring Roadmap

As shown in Figure 1, the OPM’s End-to-End Hiring Roadmap1 divides the hiring process into
14 steps in 80 calendar days, from the time the need for the employee is validated to the when
the employee reports to work.
                         Figure 1: Graphic Presentation of the 14 Steps in
                              the OPM’s End-to-End Hiring Roadmap




           Source: The OPM’s End-to-End Hiring Roadmap.
           Note: Critical dates in the process that are tracked by the HCO are highlighted in yellow.
           The step in the process controlled by the business units is highlighted in blue.


1
    See Appendix V for a glossary of terms.
                                                                                                        Page 16
                                 The Human Capital Office Improved the
                                Hiring Process, but Additional Actions Can
                               Be Taken to Better Monitor Hiring Timelines



                                                                                      Appendix V

                                     Glossary of Terms

                    Term                                           Definition

Ad Hoc Hiring                              Generally, this is hiring done for a single position as it
                                           opens, such as when an employee leaves for another
                                           position or retires.

Business Operating Divisions               The IRS’s four divisions, organized based on the groups
(also known as Business Units)             of taxpayers they serve, include the Large Business and
                                           International, the Small Business/Self-Employed, the Tax
                                           Exempt and Government Entities, and the Wage and
                                           Investment Divisions. Each operating division has a
                                           separate human capital office to assist hiring managers
                                           with personnel issues.

Business Performance Review Report         Provides a framework for measuring, reporting, and
                                           reviewing the HCO’s performance on established
                                           human capital strategic planning goals, initiatives, and
                                           collaborative programs and processes. Reported
                                           quarterly, the Business Performance Review Report is
                                           one of several communication vehicles that provides
                                           information to support the human capital performance
                                           goals of the business units, the HCO, and the IRS overall.

Career Connector System                    A commercial, web-based system tailored for the Federal
                                           Government recruitment process. The Career Connector
                                           system accepts applicant resumes online and allows
                                           applicants to update their information when necessary.
                                           Once applicants complete the online application, the
                                           system ranks the applicants and identifies which
                                           applicants qualify for the position. It allows the HCO to
                                           send system-generated emails to request additional
                                           information from applicants or inform them if they
                                           qualify for the position, to schedule interviews, and to
                                           communicate on such matters as job offers and
                                           preemployment activities.

Certificate of Eligible Applicants         A listing of applicants certified by the HCO from which
                                           the hiring manager can select to hire.

                                                                                               Page 17
                              The Human Capital Office Improved the
                             Hiring Process, but Additional Actions Can
                            Be Taken to Better Monitor Hiring Timelines



                   Term                                         Definition

Data Warehouse                          A repository for data from various sources that allows
                                        multiple users to analyze data and pull reports.

Embedded Human Resources offices        Provide human resources support to hiring managers
                                        within the business units, which are organized under the
                                        authority of the Deputy Commissioner for Services and
                                        Enforcement.

End-to-End Hiring Roadmap               Describes how to integrate and streamline the five
                                        components of Federal hiring (workforce planning,
                                        recruitment, hiring, security and suitability, and
                                        orientation) and establishes Government-wide measures
                                        for the effectiveness of Federal hiring.

Entry-on-Duty Date                      Effective date for the candidate’s employment, usually
                                        the day they start work.

External Hiring                         Hiring a new employee who is not currently employed by
                                        the Federal Government.

Filing Season                           The period from January through mid-April when most
                                        individual income tax returns are filed.

HCO Employment Operations Office        Located onsite for each business unit and are under the
                                        jurisdiction of the HCO.

Hiring Timelines                        The amount of time spent from the beginning of the
                                        hiring process (identification of the need and approval to
                                        hire an employee) until the end of the hiring process (the
                                        employee reports for work).

Human Capital                           Term used to describe the skills, abilities, and
                                        contributions of the employees in an agency.

Human Capital Office                    Established in July 2003 to provide human capital
                                        strategies and tools for recruiting, hiring, developing, and
                                        retaining a highly skilled and high-performing workforce
                                        to support IRS’s mission accomplishments. The HCO is
                                        headed by the IRS Human Capital Officer and is
                                        organized under the authority of the Deputy
                                        Commissioner for Operations Support.


                                                                                           Page 18
                               The Human Capital Office Improved the
                              Hiring Process, but Additional Actions Can
                             Be Taken to Better Monitor Hiring Timelines



                   Term                                          Definition

Human Resources Office                   Each IRS business unit has a human resources office,
                                         which does not fall under the authority of the HCO.
                                         These “embedded” offices provide direct human
                                         resources support to hiring managers within the business
                                         unit.

Internal Hiring                          Hiring from the population of current Federal
                                         Government employees.

Job Announcement/Job Opportunity         An advertisement for applications for a position or for a
Announcement                             roster for positions that are planned in the near future. As
                                         of January 2011, the vast majority of positions are
                                         announced and posted on the USAJobs web site at
                                         www.usajobs.gov.

Mission Critical Positions               Those positions critical to front-line enforcement and
                                         direct support to front-line operations needed to meet
                                         stated IRS goals.

Office of Personnel Management           An independent agency of the United States Government
                                         that manages the civil service of the Federal Government.
                                         The mission of the OPM is to “recruit, retain, and honor a
                                         world-class workforce to serve the American people.”
                                         The Department of the Treasury reports to the OPM on
                                         human capital issues, including IRS’s hiring timeline
                                         performance.

Personnel Action Request Date            Date the hiring manager submits the approved request to
                                         hire an employee. The request was once made on a form
                                         titled “Personnel Action Request,” but is now made
                                         electronically as a “Power Recruit” or in some cases, via
                                         an email.




                                                                                            Page 19
            The Human Capital Office Improved the
           Hiring Process, but Additional Actions Can
          Be Taken to Better Monitor Hiring Timelines



                                                  Appendix VI

Management’s Response to the Draft Report




                                                        Page 20
  The Human Capital Office Improved the
 Hiring Process, but Additional Actions Can
Be Taken to Better Monitor Hiring Timelines




                                              Page 21
  The Human Capital Office Improved the
 Hiring Process, but Additional Actions Can
Be Taken to Better Monitor Hiring Timelines




                                              Page 22
